                           Office of Inspector General
                          Corporation for National and
                                   Community Service




         Pre-Audit Survey of the
    New York State Commission on
    National and Community Service

         OIG Report Number 04-19




                        Prepared by:

                COlTON & COMPANY LLP
             333 North Fairfax Street, Suite 401
                 Alexandria, Virginia 22314




This report was issued to Corporation management on September 28, 2004.
Under the laws and regulations governing audit follow-up, the Corporation is to
make final management decisions on the report's findlngs and
recommendations no later than March 28, 2005, and complete its corrective
actions by September 28, 2005. Consequently, the reported findings do not
necessarily represent the final resolution of the issues presented.
                                 Office of Inspector General
                       Corporation for National and Community Service
                                     Audit Report 04- 19

         Pre-Audit Survey of Corporation for National and Community Service Grants
                                       Awarded to the
              New York State Commission on National and Community Service


OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained Cotton & Company LLP to perform a pre-audit survey of the New York
State Commission on National and Community Service (Commission). The objectives of the
pre-audit survey were to evaluate: (1) the internal controls over grant management; (2) the pre-
award selection process; (3) the administration of grant funds; and (4) the evaluation and
oversight of subgrantees. The audit period covered Program Years 2001-2002 and 2002-2003.

The Commission was awarded Corporation AmeriCorps Formula, Program Development and
Training, and Administrative grants totaling $45,907,802 for Program Years 2001-2002 and
2002-2003. During the survey program years, the auditors noted the following:

       The Commission did not formally or consistently consider past performance for
       applicants that had previously received grants;

       The Commission did not maintain adequate documentation to support its review of
       applicant and subgrantee OMB Circular A-1 33 reports;

       The Commission did not have adequate procedures to ensure that subgrantees submitted
       Financial Status Reports (FSRs) in a timely manner;

       The Commission did not periodically reconcile FSRs to cash drawdown balances; and

       The Commission did not adequately monitor subgrantees, performed only limited
       programmatic monitoring, and conducted no fiscal monitoring of tested subgrantees.

The auditors recommended performing a full-scope audit for Program Years 2001-2002 and
2002-2003.

The Office of Inspector General has reviewed the report and the work papers supporting the
auditors' conclusions. Our review of the auditors' work papers disclosed no instances where
Cotton & Company LLP did not comply, in all material respects, with generally accepted
government auditing standards.

The Office of Inspector General provided Commission and Corporation officials with a draft of
this report for their review and comment. Their responses are included in their entirety as
Appendices C and D, respectively.
                 OFFICEOF INSPECTOR GENERAL
         CORPORATION
                   FOR NATIONAL AND COMMUNITY SERVICE
                  PRE-AUDIT  SURVEY OF THE
    NEWYORKSTATECOMMISSION ON NATIONAL AND COMMUNITY
                                                   SERVICE

                                     Table of Contents

Summary of Results .....................................................................    1

Background ..............................................................................   2
      Corporation for National and Community Service ........................               2
      New York State Commission .................................................           2

Objectives. Scope. and Methodology ................................................         3

Results of Fieldwork ....................................................................    4
       Internal Controls ................................................................    4
       Selecting Subgrantees .........................................................       5
       Administering Grant Funds ...................................................         8
       Evaluating and Monitoring Grants ...........................................         10

Appendix A: Funding Hierarchy Flowcharts

Appendix B: Detailed Engagement Objectives and Methodology

Appendix C: New York State Commission Response

Appendix D: Corporation Response
                                        auditors advisors




June 23,2004


Office of Inspector General
Corporation for National and Community Service


Cotton & Company LLP performed a pre-audit survey of the New York State Commission on
National and Community Service in accordance with the terms of the February 23,2004,
statement of work by and between Cotton & Company and the Office of Inspector General
(OIG), Corporation for National and Community Service.

The primary survey objectives were to evaluate the adequacy of the:

               internal controls over grant management;

               pre-award selection process;

               administration of grant funds; and

               evaluation and oversight of subgrantees.

We conducted our procedures in accordance with Government Auditing Standards issued by the
Comptroller General of the United States in 2003. We were not engaged to and did not conduct
an audit of financial statements, the objective of which would be the expression of an opinion.
Accordingly, we do not express such an opinion. Further, our procedures were not sufficient to
express an opinion on the Commission's internal controls or on its compliance with laws,
regulations, contracts, and grants. Accordingly, we do not express such an opinion. Had we
performed additional procedures, other matters might have come to our attention that would have
been reported.

This report is intended solely for the information and use of the OIG and is not intended to be,
and should not be, used by anyone other than the OIG.

COTTON& COMPANY
              LLP


Alan Rosenthal, CPA
Partner
SUMMARY OF RESULTS

We were engaged by the Office of Inspector General (OIG), Corporation for National and
Community Service (Corporation), to provide an assessment of systems and procedures in place
at the New York State Commission on National and Community Service (Commission) to
administer its AmeriCorps grants and monitor the fiscal activity of subgrantees. The primary
objectives of this pre-audit survey were to evaluate the adequacy of the:

               internal controls over grant management;

               pre-award selection process;

               administration of grant funds; and

               evaluation and oversight of subgrantees.

Based on results of procedures performed, we have made the following preliminary assessments
regarding the Commission's systems for administering its AmeriCorps grants:

       0       The Commission did not formally or consistently consider past performance for
               applicants that had previously received grants.

               The Commission did not maintain adequate documentation to support its review
               of applicant and subgrantee OMB Circular A- 133 reports.

               The Commission did not have adequate procedures to ensure that subgrantees
               submitted Financial Status Reports (FSRs) in a timely manner.

               The Commission did not periodically reconcile FSRs to cash drawdown balances.

       rn      The Commission did not adequately monitor subgrantees, performed only limited
               programmatic monitoring, and conducted no fiscal monitoring of tested
               subgrantees.

The findings and recommendations presented in this report describe these matters in detail.

Based on the results of our preliminary assessment, we recommend performance of a full-scope,
incurred-cost audit to address the issues identified herein for Program Years 2001-2002 and
2002-2003. We assessed the Commission's systems for administering its AmeriCorps grants,
and its policies and procedures for monitoring subgrantee fiscal activity. We determined that the
Commission was operating at a medium risk level for both years audited. At a minimum, we
recommend that the Corporation perform limited testing of fiscal compliance for a sample of
subgrantees, follow up with the Commission to determine that it has taken appropriate corrective
actions to address other conditions noted in this report, and consider these conditions in its future
oversight and monitoring of the Commission.
BACKGROUND

Corporation for National and Community Service

The National and Community Service Trust Act of 1993, which amended the National and
Community Service Act of 1990, established the Corporation for National and Community
Service. The Corporation funds opportunities for Americans to engage in service that fosters
civic responsibility, strengthens communities, and provides educational opportunities for those
who make a substantial commitment to service.

The Corporation awards grants and cooperative agreements to State commissions, nonprofit
entities, tribes, and territories to assist in creating full-time and part-time national and community
service programs. Through these grants, AmeriCorps members perform service to meet
educational, human, environmental, and public safety needs throughout the nation, especially
addressing needs related to poverty. In return for their service, program participants may receive
a living allowance and post-service educational benefits.

The Corporation awards approximately 75 percent of its AmeriCorps funds to State
commissions. State commissions are responsible for developing and communicating a vision
and ethic of service throughout their States.

Additionally, State commissions, acting as grantees, distribute funds to subgrantees to enable
them to administer service programs. State commissions are responsible for monitoring
subgrantee compliance with grant requirements. The commissions also are responsible for
providing training and technical assistance for the service programs. State commissions are
prohibited from directly operating national service programs.

New York State Commission on National and Community Service

The Governor of New York issued Executive Order 179, establishing the New York State
Commission on National and Community Service, on December 30, 1993. The Commission was
located in the State Office of the Budget at that time. In 1999, the Commission became part of
the Office of Youth Development (OYD) in the New York State Office of Children and Family
Services (OCFS).

The Division of Administration of OCFS provides support to the Commission in the areas of
financial management, human resources, facility management, contract management, and audit
and quality control. The Bureau of Financial Operations within OCFS provides numerous
financial services for the Commission through an online system that facilitates proper
segregating, recording, and reporting of financial transactions. Policies and procedures for all
program and internal control aspects are documented by the Commission, the State of New York,
and OCFS.

The OCFS maintains an internal system of budgetary, financial, and management controls fully
in compliance with approved practices, guidelines, policies, procedures, and laws.
The Commission has seven full-time employees, six program administrators, and an
administrative secretary. The assistant commissioner of OCFS is operating as acting Executive
Director until human resource issues are resolved and the full-time Executive Director position is
filled.

The Commission is subject to annual Office of Management and Budget (OMB) Circular A-133
audits performed for the State. Its grants have not, however, been selected as major programs
and, therefore, have not been subjected to detailed testing. The OCFS is tested annually as part of
the New York State Single Audit and, accordingly, its internal controls are tested.

We reviewed findings applicable to OCFS from the 2002 and 2003 New York State Single
Audits for applicability to the Commission. We noted one finding in both years regarding use of
an incorrect accumulator code on some of the vouchers tested. Each employee was responsible
for determining the appropriate accumulator code for use in the Payroll Allocation System,
which matches work functions performed during a pay period. In response to the 2002
comment, OCFS instituted a certification on time sheets. The 2003 audit noted, however, that
the certifications lacked appropriate language regarding certification of accumulator codes. The
OCFS indicated that it will strengthen the review of vouchers.

The Commission provided the following information for Program Years 2001-2002 and 2002-
2003.

                                       Expenditures of             Commission
             Program Year            Corporation Funding          Matching Funds
             2001-2002                    $20,257,465             $12,689,325
             2002-2003                    $25,199,617             $14,136,203

OBJECTIVES, SCOPE, AND METHODOLOGY

We were engaged by the OIG to provide an assessment of systems and procedures in place at the
Commission for administering its AmeriCorps grants and monitoring the fiscal activity of its
subgrantees. The primary purposes of this pre-audit survey were to evaluate the adequacy of the:

               internal controls over grant management;

               pre-award selection process;

               administration of grant funds; and

               evaluation and oversight of subgrantees (including fiscal monitoring of
               AmeriCorps State subgrantees), the monitoring of program accomplishments and
               other performance statistics, and the monitoring of AmeriCorps member
               eligibility and service-hour reporting.
Our survey included the following procedures:

       0      Reviewing applicable laws, regulations, grant provisions, the Corporation's State
              Administrative Standards Instrument, and other information to gain an
              understanding of legal, statutory, and programmatic requirements.

               Reviewing OMB Circular A-1 33 reports and Corporation and Commission grant
               agreements for Program Years 2001-2002 and 2002-2003.

       0       Obtaining information from Commission management to complete the flowcharts
               in Appendix A, which document the hierarchy of Corporation funding to the
               Commission for Program Years 2001-2002 and 2002-2003.

               Conducting inquiries, observations, investigations, recalculations, evaluations,
               and examinations of a limited sample of source documents to meet the objectives
               and methodology specified in Appendix B.

As part of the procedures performed, we documented and tested internal controls in place at the
Commission. We summarized results of our work to develop the findings and recommendations
presented in this report. We discussed all findings with Commission management during an exit
conference on June 23,2004. Additionally, we provided a draft of this report to the Commission
and the Corporation. Commission and Corporation responses to our findings and
recommendations will be included in the final report as Appendices C and D, respectively.

RESULTS OF FIELDWORK

Internal Controls

According to 45 CFR 9 2541.200, the Commission must maintain financial management systems
that provide for "[alccurate, current, and complete disclosure of the financial results of
financially assisted activities." The Commission must also provide "[elffective control and
accountability . . . for all grant and subgrant cash, real and personal property, and other assets."

As part of OCFS, the Commission had documented controls, guidelines, and policies for all
major processes reviewed, with multilayered clearance and approval for all documented
procedures. The Commission's intranet site maintains all non-AmeriCorps policies;
AmeriCorps-specific procedures are maintained by the Commission.

Program administrators review quarterly vouchers from subgrantees and compare costs to
Periodic Expense Reports (PERs). The Commission's stated procedures include comparing
vouchered invoices to supporting documentation on a sample basis during site visits. Program
administrators and Bureau of Contract Management (BCM) staff follow guidance provided by
the voucher processing procedures for performing quarterly reviews.
The Commission also reviews quarterly vouchers and PERs to ensure that the subgrantees'
reported matching is accurate. Also, BCM uses an automated System that can test the matching
requirement. The Commission's stated procedures include reviewing program match files during
site visits and conducting sample testing over matching expenditures to verify allowability and
proper valuation of the match previously reported.

Before funds are drawn down for Administrative, Program Development and Training (PDAT),
and Disability grants, the Commission prepares purchase orders, which are then approved by the
OCFS Office of Finance. The Office of the State Comptroller (OSC) follows drawdown
requirements for all Corporation grants.

The OCFS Bureau of Financial Operations (Finance) and the Office of Budget Management
(Budget) prepare financial reports for the Commission using OSC accounting system reports.
The Commission, through OCFS, files financial reports (SF 269s) to the Corporation on the
Commission's grants on a semi annual basis. The Commission prepares FSRs for AmeriCorps
grants using subgrantee FSRs submitted online in the Web-Based Reporting System (WBRS).

Selecting Submantees

As stated in 45 CFR § 2550.80(b), each State commission must "[aldminister a competitive
process to select national service programs to be included in any application to the Corporation
for funding."

All documents related to the Request for Proposal (RFP) process, including policies, Notices of
Funding Availability (NOFAs), RFPs, sample questions and answers, and review instruments,
are created in advance by the Commission and are approved through the OCFS clearance
process.

The Commission publishes the NOFA through required mechanisms, including the New York
State Contract Reporter, the OCFS website, and the OCFS online bidder list. It also mails
NOFAs to individuals and organizations upon request.

The Commission conducts bidders' conferences and technical assistance workshops throughout
the State. It provides complete application guidelines to prospective subgrantees as well as
printed information at the technical workshops.

Proposals undergo an initial review for completeness of key document requirements to ensure
that only complete proposals advance in the review process. Reviewers may be solicited from
Commission members, OCFS's Youth Leadership and Service Council members, OCFS staff,
other State agencies, and faith-based and community organizations. OMB Circular A-1 33
reports for applicants are sent to OCFS's Office of Audit and Quality Control (AQC) for review,
and the Commission is notified when follow-up on report issues is deemed necessary. Each new
or re-compete application is assessed by a peer review team of three persons, including one
Commission staff member. Reviewers are required to sign a conflict-of-interest and
confidentiality agreement form for each application reviewed.
All applications that receive a rating of excellent are sent to the Corporation for competitive
approval. Once the Corporation makes competitive decisions, the Commission revises its
funding recommendations based on the number of organizations needing funding and the amount
of formula funding available. It then presents these recommendations to the Commission's
Board for approval.

Continuation applications (those within the three-year grant cycle) have a less rigorous
application process. The program administrator conducts the review, considering reporting
history and monitoring visit results as part of the rating process. The Commission Board has
ultimate approval authority. The Commission notifies all applicants of award decisions.

Issue: The Commission did not formally or consistently consider past performance for
applicants that had previously received grants.

The Commission's monitoring visit results are not formally considered in the evaluation process
for re-compete applicants. It does consider accomplishments reported by subgrantees in their
proposals, but, unless subgrantees identify negative results, this type of information is not
formally provided to, or considered by, the peer review team. While program administrators
may be familiar with problem organizations and may consider this information in their
evaluations, this is not an official procedure, and it may be applied inconsistently.

Without consistent consideration given to past performance, the Commission may approve
additional funding to subgrantees that have not historically performed adequately. Also, if the
Commission does not consider past performance information uniformly for all applicants, it
might appear to be biased if it declines funding to one organization with negative performance
while awarding additional funding to another with similar performance.

As stated in 45 CFR 5 2517.500:

               In reviewing an application for a grant or a subgrant . . . a State
               Commission . . . will apply the following criteria: . . . [tlhe quality of the
               leadership of the program, past performance of the program, and the
               extent to which the program builds on existing programs.

Additionally, 45 CFR 9 2541.430 states that if a subgrantee materially fails to comply with any
term of an award, the awarding agency may wholly or partly suspend the current award or
withhold future awards for the program.

Recommendation: We recommend that the Commission develop procedures to formally
consider the past performance of re-compete applicants in the peer review process and provide
information on subgrantee progress toward its goals, timeliness of reporting programmatic and
financial data, accuracy of reporting, attendance at events and meetings, issues raised at site
visits, and any other known issues. By developing such procedures, the Commission can ensure
that it has a sound basis for denying funding to organizations that did not adequately utilize prior
Corporation funding.
Issue: The Commission did not maintain adequate documentation to support its review of
applicant and subgrantee OMB Circular A-133 reports.

The Commission maintained limited documentation to support the procedures it performed to
review OMB Circular A-133 reports. The review of this information was the Commission's
primary tool for evaluating the financial capacity and capability of organizations during the
proposal review process for both new and existing subgrantees. While the Commission did
prepare a spreadsheet summarizing this information, it did not indicate which review steps it
performed for each OMB Circular A-133 report.

We reviewed a sample of approved new applicants. One of two applicants reviewed submitted
an outdated OMB Circular A-1 33 report that did not cover the most recent fiscal year. We
expanded our testing by reviewing the OMB Circular A-1 33 summary report prepared by AQC
for all applicants in the Program Year 2003-2004 RFP process to determine if the Commission
accepted other outdated reports and used them in its financial capability assessment. Four other
organizations submitted outdated reports. The summary report did not indicate if more recent
information was requested and reviewed.

We also reviewed the Program Year 2002-2003 OMB Circular A-1 33 summary report and noted
that an outdated report from 1999 was submitted. We concluded that this list was incomplete.
The reviewer did not indicate if an OMB Circular A-1 33 report or other financial report was
reviewed for 17 of 52 subgrantees, or if any comments or follow-up action was performed or
necessary. For these 17, it is not evident that any such review or analysis occurred. The
Commission may have granted funds to organizations not capable of adequately managing the
financial aspects of a grant, thus putting Corporation funds at risk.

Section 21 of the AmeriCorps Grant Provisions, entitled "Financial Management
Provisions," states that a recipient of a Federal grant is required to ensure that
subrecipients have A-133 audits when required and issue decisions and ensure follow-up
on audit findings in a timely manner.

In addition, OMB circulars require grant funds to be accounted for using an adequate financial
management system that is sufficient to permit preparation of reports and tracking of funds to
expenditure-level detail. Without adequate documentation, we were unable to determine
whether the applicants or subgrantees maintained financial management systems that completely
disclosed financial results of Federally-funded activity. Without such documentation, we were
also unable to determine whether records were maintained that adequately identified the source
and application of funds provided, and whether records contained information pertaining to
subgrantee awards in accordance with 45 CFR 2541.200.

Recommendation: We recommend that the Commission create a standardized OMB Circular
A- 133 review checklist to provide an efficient way to document review procedures performed,
ensure that current reports are evaluated using online resources where possible, and ensure that
information provided to program administrators is complete.
administer in^ Grant Funds

According to 45 CFR fj 2550.80(d), State commissions "will be responsible for administering the
grants and overseeing and monitoring the performance and progress of funded programs."

The AmeriCorps Fiscal Manual is provided to all program directors and includes detailed
information on allowable and allocable costs, financial records to be used as source
documentation, applicable cost principles, as well as the Commission's payment review process.

The Commission requires its subgrantees to submit Periodic Expense Reports (PERsi, Quarterly
Income Reports, and FSRs via the Web Based Reporting System (WBRS) by the 20' of the
month following the end of the report period. A calendar is provided to the subgrantees with
required reporting dates. Each program administrator maintains a program monitoring chart
showing the timeliness of submission of all required reports.

Payment vouchers are received quarterly from subgrantees and are reviewed by program
administrators. The administrators compare the payment vouchers to corresponding PERs to
ensure that costs were incurred within the budgeted period, the amount requested agrees with the
PER balance, minimum matching requirements are met, and expenditures are within the
budgeted amounts. Supporting documentation for expenditures is reviewed only during fiscal
site monitoring visits that, according to Commission policy, are to be performed yearly. As
advances are provided to subgrantees for first-quarter operating expenditures, subgrantee
payments for the second, third, and fourth quarters are adjusted to recover advances.

The Commission also requires subgrantees to submit periodic progress reports. Program
administrators use a progress report review instrument to evaluate the quality of progress reports
received and provide recommendations for improvements.

Issue: The Commission did not have adequate procedures to ensure that subgrantees
submitted FSRs in a timely manner.

We tested 10 subgrantees from Program Years 2001 -2002 and 2002-2003. Of the 23 required
quarterly FSRs during these years, six were submitted after the Commission's required due date,
and three of these missed the Corporation's deadline. As a result, the Commission's aggregate
FSRs were also submitted late. Accordingly, the Commission and the Corporation were not able
to conduct timely reviews of costs claimed, which are necessary to prevent the misallocation of
Corporation funds.

According to AmeriCorps Grant Provision 16(a)(i), entitled "Financial Status Reports," the
FSRs are due April 30 for the period ending March 3 1, and October 3 1 for the period ending
September 30. A grantee must set its own deadlines for its respective subgrantees.

Based on the subgrantee agreement and AmeriCorps policies posted on WBRS, the Commission
required its subgrantees to submit quarterly FSRs no later than 20 days after the end of the
period.
Recommendation: We recommend that the Commission strengthen its procedures to actively
follow up with subgrantees on late FSR submissions. While the Commission reminds
subgrantees by e-mail, phone calls, and letters that late reporting may impact funding renewal
and may result in penalties, these steps do not appear to be adequate. More stringent
requirements, such as enforcing penalties, may be necessary.

Issue: The Commission did not periodically reconcile FSRs to cash drawdown balances.

Material differences existed between balances reported on the FSRs and the cash drawdown
balances reported. It appears that the Commission had drawn down excess cash for the disability
and formula grants. While we realize that expenditures reported on FSRs were gathered from
subgrantee reports and were not actual expenditures incurred under this grant, and that timing
issues may have caused some of the differences, the Commission was unable to specifically
explain the differences. The reconciliation of this information is outlined below:

Program                 Reporting Period         FSR               Cash           Difference
                                                                Drawdown
Disability                 1213112003             $89,217          $91,525           $(2,308)
Competitive                 313 112004         38,3 10,859      35,884,528         2,426,33 1
Formula                     313 112004         13,208,293       13,626,299          (4 18,006)
Homeland Security           3/3 112004          1,I 11,363         88 1,367          229,996
                                              $52,7 19,732     $50,483,719        $2-236.013

Expenditures reported on FSRs were not properly supported by the State accounting system and
were not actual expenditures incurred under this grant. Periodic reconciliation ensures that
amounts reported to the Corporation are accurate, overpayments to subgrantees are identified,
requests for additional obligations or deobligations can be made promptly, and officials with
first-hand knowledge are available to respond to questions or support decisions made.

According to OMB Circular A- 102, Grants and Cooperative Agreements with State and Local
Governments, Attachment, Paragraph (3)(b), continuing Federal awards must be reconciled at
least annually, and program performance and financial reports must be evaluated. The circular
requires, among other items, that Financial Status Reports (SF-269) be reviewed.

Recommendation: We recommend that the Commission develop a formal policy to ensure that
it reconciles cumulative claimed costs per FSRs to cumulative drawdowns made by the
Commission at least annually. The policy should include procedures requiring differences to be
investigated and resolved, with explanations documented.
Evaluatin~and Monitoring Grants

As stated in 45 CFR 5 2550.80(e), a Commission, "in concert with the Corporation, shall be
responsible for implementing comprehensive, non-duplicative evaluation and monitoring
systems."

To track monitoring efforts taken by the program administrators, the Commission developed a
program monitoring checklist, which is updated each time site visits are performed, reports are
submitted, and reports are reviewed. This checklist allows for an assessment of whether
monitoring efforts are consistent with the program risk level.

At the beginning of each program year, the Commission conducts a risk assessment of each
subgrantee using a risk assessment form, which appears to be a best-practice document. Based
on results of the risk assessment, a monitoring plan is then created. In addition to reviewing
reports, as described earlier, the policy requires daily monitoring of critical or high-risk
subgrantees, at least one site visit each year for all subgrantees (with higher-risk subgrantees
receiving more than one visit), and the applicable monitoring tool sections completed. In
Program Year 2001-2002, the Commission distributed risk assessment questionnaires to
subgrantee Executive Directors and fiscal officers, requiring them to complete the questionnaire
and certify that all financial internal controls were in place.

Issue: The Commission did not adequately monitor subgrantees, performed only limited
programmatic monitoring, and conducted no fiscal monitoring of tested subgrantees.

The Commission has an aggressive monitoring policy that involves full financial and
programmatic monitoring of subgrantees. We noted during testing of a sample of subgrantees,
however, that the Commission did not follow its stated policy. Specifically, it did not examine
support for claimed expenditures for any of the subgrantees in our sample. The Commission
explained that Program Year 2002-2003 was an unusual year, with a lack of Corporation funding
and State travel restrictions. Such conditions can, however, heighten the risk of subgrantee
misuse of Corporation funds. Many of the monitoring issues also existed in Program Year 200 1-
2002. Audit testing showed the following specific results:

               The Commission's monitoring policy requires reviewing subgrantee financial
               records during monitoring site visits to ensure the accuracy and allowability of
               financial information reported on FSRs. Based on our sample testing of 10
               subgrantees for Program Years 2001 -2002 and 2002-2003, none of the
               subgrantees received a fiscal review of their accounting records and supporting
               documents. This is the only control established to test allowability and propriety
               of costs for subgrantee expenditures claimed; thus, there is the risk that
               subgrantees were paid for unallowable expenses, and inappropriate match was
               claimed during the period under review. Additionally, the Commission could not
               ensure the accuracy and allowability of expenditures listed on subgrantee FSRs
               and, as a result, on the Commission's aggregate FSR submitted to the
               Corporation.
              The Commission's policy requires at least one annual site visit to subgrantees that
              received a moderate or high-risk rating during the risk assessment process. Based
              on our review of five subgrantees in Program Year 2002-03, three subgrantees
              rated as moderate risk did not receive any programmatic or financial site visits.

       rn     Of the six subgrantees tested that received a programmatic site visit from the
              Commission, a maximum of six member files were reviewed, rather than the
              minimum 10 files required by Commission policy. Also, the modules for
              Program Management Review and Program Effectiveness Review were not
              completed at three of the subgrantees, and operating site visits with member
              interviews were not conducted.

              Auditors' Additional Comment to Commission's Response:
              This issue is based on documented policies and procedures in operation during
              our pre-audit survey. The Commission's response is based upon revisions made
              subsequent to the audit period. Accordingly, the Commission's response does not
              affect our reporting of the issue noted.

       0       Management oversight of monitoring activities performed by program
               administrators is lacking. The Executive Director retired in December 2002.
               Subsequently, management responsibilities previously performed by the
               Executive Director were divided among program administrators. With these
               additional responsibilities, program administrators devoted only half of their time
               to monitoring activities.

Without regular monitoring, subgrantee site visits, and visits to operating sites, the Commission
could not ensure that subgrantees were operating the AmeriCorps program in compliance with
Corporation requirements. For example, it could not determine if members received orientation
and training, were eligible to perform service, prepared time and attendance records as required,
received living allowances on an incremental basis, and did not perform prohibited activities.

According to 45 CFR 5 2541.400(a), grantees are responsible for managing the day-to-day
operations of grant- and subgrant- supported activities. Grantees must monitor grant and
subgrant-supported activities to ensure compliance with applicable Federal requirements and
ensure that performance goals are being achieved. Grantee monitoring must cover each
program, function, or activity.

Additionally, Section 4.3 of the Reference Manual for Commission Executive Directors requires
commissions to evaluate whether subgrantees comply with legal, reporting, financial
management, and grant requirements and ensure follow through on issues of noncompliance.

Recommendation: We recommend that the Commission comply with its policies for
monitoring subgrantees, continue to conduct a risk assessment of each subgrantee, and conduct
monitoring appropriate for each risk level. We recommend that key controls, such as validating
costs and member testing, be performed for all subgrantees. Such tests could be conducted on-
site or off-site. The Program Monitoring Tool appears to be an excellent form to document most
monitoring and should be used regularly.

It is our understanding that the Executive Director position is still expected to be filled. We also
understand that fiscal site visits will be performed by contracted auditors. These responsibilities
are critical to an effective monitoring program. We also recommend that training for fiscal
monitoring be obtained for program administrators, even if those tasks will be performed by
external personnel. We understand that many of the subgrantees are large organizations with
complex accounting systems. However, it is beneficial for program administrators to become
more comfortable with the fiscal aspects of grant administration to adequately support contracted
financial monitoring and to follow up on issues raised.
                                                                                                                            APPENDIX A
                                                                                                                              Page 1 of 2
                                        Office of Inspector General
                              Corporation for National and Community Service
                                    State Commission Pre-Audit Survey
                                       Funding Hierarchy Flowchart


                            Corporation for National and Community Service
             Funding to the New York State Commission on National and Community Service
                                      For Program Year 200 1-2002




                                                         1
                   L L                                                      A
AmeriCorps         AmeriCorps         Governor's          Education          America                         Disability
 Formula           Competitive         Initiative                             Reads                           Funds
  Funds              Funds              Funds               Funds

 $5,941,212        $13,050,755         $326,700           $121,604           $7,643                           $59,500

  Match              Match              Match
 $3,268,814        $8,642,980          $207,375


                                      -r                                    T
                        Total Corporation Funds Retained by the Commission: $8O9,551

                                      Total Commission Matching Funds: $12,689,325

      I                  Total Corporation Funds Awarded to Subgrantees: $19,447,9 14




AmerCorps
 Formula


 $4,204,366

   Match
 $2,993,740

'otal # of SUB
        17
rota1 # of Site!
       172
                   Amencorps
                   Cornpetitwe


                   $12,771,150

                      Match
                    $8,573,602

                   otal # of SUBS
                          24
                   rota1 # of Sites
                         259
                                      AmeriCorps
                                      Governor's
                                       Initiative

                                        $326,700

                                         Match
                                        $298,685

                                      otal # of SUBS
                                             I
                                      rota1 # of Sites
                                            23
                                                          AmeriCorps
                                                         :ducation Awan


                                                            $101,920




                                                         rota1 # of SUB!
                                                                 9
                                                         Total # of Sites
                                                                45
                                                                            r
                                                                            America Reads   idmin~strative



                                                                                              $3 17,226

                                                                                               Match
                                                                                              $453.444
                                                                                                               Disability



                                                                                                                $29,475
                                                                                                                                PDAT



                                                                                                                               $49,420
                                                                                                                  APPENDIX A
                                                                                                                    Page 2 of 2
                                   Office of Inspector General
                         Corporation for National and Community Sewice
                               State Commission Pre-Audit Suwey
                                  Funding Hierarchy Flowchart


                       Corporation for National and Community Service
        Funding to the New York State Commission on National and Community Service
                                  For Program Year 2002-2003




                                                                            +
                                                         C
                                                                                               L
 AmeriCorps         AmeriCorps                             Education        Administrative     Disability
  Formula           Competitive         Security            Award              Funds            Funds
   Funds                                                    Funds

  $7,491,010                                               $138,900                              $59.500

    Match                                                                      Match
  $4,637,860                                                                  $538,184




                   Total Corporation Funds Retained by the Commission: $752,539

                              Total Commission Matching Funds: $14,136,203

                    Total Corporation Funds Awarded to Subgrantees: $24,447,078




                                        Homeland           Education        Administrative      Disability          PDAT
                    Competitive          Security           Award


  $5,255,999        $13,366,458        $1,111,363           $121,130           $259,444         $62,050'           $76,927

    Match              Match             Match                                  Match
  $3,279,537         $8,077,300         $541,366                              $216,037'

                                     Total # of SUBS     rota1 # of SUBS
                                             4                   7
                                      Total # of Sites   Total # of Sites
                                             18                 37



Note 1: T h e Commission's cumulative match contribution met the minimum matching requirement.
Note 2: D u e t o the carryover o f Corporation funds from previous program years, the Commission's expenditures appear to,
but d o not exceed, the funds obtained from the Corporation during the current program year.
              APPENDIX
                     B

DETAILED
       ENGAGEMENT      AND METHODOLOGY
               OBJECTIVES
                                                                                     APPENDIX B
                                                                                       Page 1 of 3

                             Office of the Inspector General
                   Corporation for National and Community Service
                          State Commission Pre-Audit Survey
             New York State Commission on National and Community Service
                   Detailed Engagement Objectives and Methodology


INTERNAL CONTROL

Our objective was to assess the adequacy of financial systems and documentation maintained by
the Commission to provide reasonable assurance that transactions were properly recorded and
accounted for to: (1) permit preparation of reliable financial statements and Federal reports; (2)
maintain accountability over assets; and, (3) demonstrate compliance with laws, regulations, and
other compliance requirements.

To achieve these objectives, we reviewed promulgated guidance as well as identified internal
control objectives and characteristics related to the Commission's ability to ensure
compliance with Federal laws, regulations, and program compliance. Through inquiry,
observation, and inspection of documents, we tested the Commission's controls related to the
control environment. We also reviewed operating procedures in place regarding allowable
costs, eligibility, matching, period of availability of Corporation funds, procurement,
suspension, debarment, program income, subgrantee monitoring, and Commission reporting
to the Corporation. We performed limited testing over key controls. This included sampling
and reconciling drawdown activity to supporting voucher documentation. We reconciled
amounts reported, claimed, and reimbursed at both the subgrantee and Commission levels.


SELECTING SUBGRANTEES

Our objective was to determine if the Commission had an open, competitive process to select
national service subgrantees. We examined policies and procedures related to assessing the
adequacy of potential subgrantee financial systems, subgrantee controls to administer a Federal
grant program, and processes for preventing conflicts of interest in the selection process at the
Commission. We also determined if the Commission's systems and controls related to selecting
subgrantees were functioning as designed.

To achieve these objectives, we interviewed key Commission and OCFS management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We reviewed documented procedures
related to the RFP solicitation, review, and approval process of both new and renewal applicants.
We reviewed sample documentation for the entire process. This included reviewing
                                                                                   APPENDIX B
                                                                                     Page 2 of 3

risk assessment tools, training tools, reviewer packages, recommendation summaries and
packages provided to the Commission Board, A-1 33 review spreadsheets, correspondence, and
memoranda.

We also conducted tests to determine if the Commission's systems and controls for selecting
subgrantees were functioning as designed. Our testing methodology included selecting a
judgmental sample of subgrantee selection files and reviewing file documentation for evidence
of selection criteria, as defined by Commission interviews, policies and procedures, and known
best practices. This included selecting new applicants, recompetes, a renewal (continuation of
existing grant), and denied applicants to examine documents used during the Commission's
 selection process.

ADMINISTERING GRANT FUNDS

Our objectives were to:

               Assess the adequacy of systems and controls used by the Commission to maintain
               appropriate financial management systems to disburse funds and track
               Commission and program expenses according to legal and grant requirements.

               Determine if the Commission's organizational structure, staffing level, and
               staffing mix were conducive to effective grant administration.

               Determine if the Commission provided adequate guidance to subgrantees related
               to maintenance of financial systems, records, supporting documentation, and
               reporting of subgrantee activity.

               Assess the adequacy of financial systems and Commission documentation to
               support oversight of subgrantees and required reporting to the Corporation, such
               as FSRs, enrollment and exit forms, change-of-status forms, and audit reports.

               Determine if the Commission had procedures in place to verify the accuracy and
               timeliness of reports submitted by subgrantees.

To achieve the above objectives, we interviewed key Commission and OCFS management and
reviewed their documented policies and procedures to administer grant funds. We also gained an
understanding of manual and automated systems used by Commission and OCFS personnel to
administer grant funds through inquiry, observation, and system walkthroughs.

We also conducted tests to determine if the Commission's systems and controls related to
administering grant funds were functioning as designed. Our testing methodology included
selecting a judgmental sample of subgrantee files. From this sample, we examined Financial
Status Report submission status for timeliness and observed the controls over grant
expenditures and subgrantee match information. We also compared amounts reported on
                                                                                    APPENDIX B
                                                                                      Page 3 of 3

FSRs to cash drawdowns by the Commission for any material discrepancies. We reviewed
procedures used by the Commission to control subgrantee grant expenditures and controls
over data entry into the Web Based Reporting System (WBRS).

EVALUATING AND MONITORING GRANTS

Our objectives were to:

              Identify and assess the adequacy of the systems and controls used by the
              Commission to implement a comprehensive subgrantee evaluation and monitoring
              process.

              Determine if the Commission had an established subgrantee site visit program in
              place and assess the effectiveness of its design in achieving monitoring objectives.

              Determine the adequacy of Commission procedures to assess subgrantee
              compliance with Corporation regulations (e.g., eligibility of members, service
              hour reporting, prohibited activities, payment of living allowances to members,
              and allowability of costs claimed under grants by subgrantees).

              Assess the adequacy of Commission procedures for obtaining, reviewing, and
              following up on findings included in subgrantee single audit reports, where
              applicable.

               Determine if program goals were established, and if program results and
               performance statistics were accurately reported and compared to these goals.

               Assess the adequacy of procedures in place to evaluate whether subgrantee
               programs were achieving their intended purposes.

To achieve these objectives, we interviewed key Commission management and reviewed the
documented program monitoring policy. We tested the Commission's systems and controls
related to evaluating and monitoring subgrantees to determine if they were functioning as
designed. Our testing methodology included selecting a judgmental sample of subgrantee files
and examining site visit documentation, as well as evidence of other monitoring procedures. We
discussed subgrantee deficiencies with Commission management. We reviewed training
documents and member contracts to determine proper monitoring over prohibited member
activities.

We also inquired about awareness of the Corporation's Government Performance and Results
Act goals and then reviewed subgrantee evaluation files to ensure the inclusion of program
accomplishments. We reviewed other corroborating documentation to verify that policies and
procedures were in operation.
    NEWYORKSTATECOMMISSION
                         ON
NATIONAL
       AND COMMUNITY
                   SERVICE
                         RESPONSE
        New York State
               Office of
      Children & Family
               Services
                                    September 20, 2004

           George E. Pataki
                    Governor
                                    Mr. J. Russell George
           John A. Johnson
                                    Inspector General
              Commissioner
                                    Corporation for National and Community Service
                                    1201 New York Avenue, NW
                                    Suite 830
                                    Washington, DC 20525

                                    Dear Inspector General George:
  Capital View Oftice Park

      52 Washington Street          Enclosed you will find the response from the New York State Office of
Rensselaer, NY 12144-2796           National and Community Service to the Pre-Audit Survey Draft Report.

                                    New York appreciates the consideration given by your office to both our
                                    answers outlined and the strategies that we have developed in response to
                                    your report. We believe that we have provided clarification or taken
                                    corrective action that adequately addresses the issues identified in the
                                    report.

                                    Thank you.




                                    Assistant Commissioner
                                    Office of Youth Development


                                    Enc.




    An Equal Opportunity Employer
Response to Pre-Audit Survey Draft Report
New York State Office of National and Community Service

The following information is being provided in response to the Pre-Audit Survey Draft Report
issued by Cotton and Company that identified issues requiring explanations or documentation.

I. Internal Controls Over Grant Management

Report: The Report acknowledges that "As part of OCFS, the Commission had
documented controls, guidelines, and policies for all major processes reviewed, with
multilayered clearance and approval for all documented procedures."

Response: The New York State Commission has had a long history of being a leader in the
nation for managing high-quality and high-performing AmeriCorps programs. As part of a
multi-billion dollar agency, policies and procedures are clearly defined, and the staff of Office of
National and Community Service (ONCS) has been in compliance and historically has met or
exceeded the requirements set forth for contract management including monitoring. The New
York Commission successfully met all Commission Administrative Standards during the review
that took place in 2001.

It is important to point out that the 2002-03 program year that was included in the Pre-Audit was
an extraordinary year nationally in the administration of the AmeriCorps program. The
Corporation for National and Community Service (Corporation) and State commissions were
forced to work closely together with programs on numerous and frequent assignments addressing
the funding issues at the Federal level. It should also be noted that in the 2002-03 program year,
a member enrollment pause was instituted and programs could not enroll members from
November 2002 through March 11, 2003. Most of the programs in the New York State portfolio
did not have any members enrolled or had limited enrollment. The Commission staff diligently
and passionately focused on assisting the programs through this critical time. It was not
"business as usual". Even the Corporation made accommodations to address the immediate
needs of the programs.

It was also an extraordinary year on the State level, and travel restrictions were instituted during
2002-03 due to fiscal constraints of the State budget.

However, all ONCS policies and procedures are now in affect. Program and fiscal monitoring
functions have resumed per stated procedures.
11. Selecting Subgrantees

Report: The report states that the Commission did not formally or consistently
consider past performance for applicants that previously received grants. The report
recommends that the Commission develop procedures to formally consider past
performance of re-compete applications in the peer review process and provide
information about subgrantee progress toward its goals, timeliness of reporting
programmatic and financial data, accuracy of reporting, attendance at events and
meetings, issues raised at site visits, and any other known issues. Thus, the Commission can
assure that it has a sound basis for denying funding to organizations that did not
adequately utilize prior Commission funding.

Response: The New York State Office of Children and Family Services Bureau of Contract
Management (BCM) recommends that the method that ONCS can utilize to include past
performance of re-compete applicants resides with the use of the OCFS Fiscal Sanction Policy,
which is current practice. Under this policy, OCFS initiates a Fiscal Sanction against a contractor
when they have not responded to requests to repay or resolve fiscal balances due OCFS. If a
contractor is on the Fiscal Sanction List, OCFS will not enter into any agreement or make any
cash payments until the outstanding issues are resolved. This list is updated daily and all
contracts are checked against the list prior to finalization.

This recommendation is based on BCM's experience with the Office of the State Comptroller.
BCM notes that considering past performance in the evaluation process for a particular segment
of the bidding population is unfair, inequitable and inappropriate. Considering the past
performance of AmeriCorps re-competes, but not that of organizations that have never been
awarded an AmeriCorps grant is unfair. Deducting evaluation points for negative AmeriCorps
past performance inherently puts a new bidder at an advantage since past performance would be
based entirely on a well-written proposal.

For new and recompeting programs, it must be noted that the Commission follows the
Corporation's 2000 Guidelines on Conducting An Effective Grant Review Process - the same
exact process CNCS uses. The guidance does not include the review of Past Performance as a
criteria within either the Peer Review Process or the Staff Review Process for performance, other
than what is described in the proposal.

The ONCS review of continuation applications for 2ndand 3rdyears does include agency history,
including subgrantee progress toward its goals, timeliness of reporting programmatic and
financial data, accuracy of reporting, attendance at events and meetings, issues raised at site
visits, and any other known issues are known and considered by staff.

ONCS has worked with agencies that were having significant issues meeting financial,
administrative or programmatic obligations to either remedy any issues, opt out of the
application process in subsequent years, or be denied funding. As a last resort, ONCS does have
procedures that address programs that are delinquent regarding requirements or are ultimately
out of compliance. In fact, one AmeriCorps program was closed in 2001-02 due to financial
management issues.
New York's portfolio has changed throughout the 10-year history of the ONCS, with only four
agencies still being funded that were in the ONCS original portfolio in 1994.

Documentation: 2000 Corporation for National and Community Service Guidelines On
               Conducting An Effective Grants Review Process
               AmeriCorps Continuation Review Form
               Fiscal Sanction Policy PPM 1814.0

Report: The report states that the Commission did not maintain adequate documentation
to support its review of applicant and subgrantee OMB Circular A-133 Reports. The
report recommends that the Commission create a standardized OMB Circular A-133
review checklist to provide an efficient way to document review procedures performed,
ensure that current reports are evaluated using online resources where possible, and
ensure that information provided to program administrators is complete.

Response: Review of all A-133 Audits was indeed accomplished by the Bureau of Audit and
Quality Control (AQC) and outcomes were provided to the Commission. The AQC written
procedures for the Review of A-133's were reviewed with the auditors and a recommendation
was made to have a review sheet or check list documenting the review attached to each audit.
AQC has recently instituted a policy wherein a new instrument will be utilized in the review and
evaluation of sub-recipient audit reports. This information is maintained and monitored
systematically, utilizing a comprehensive on-line reporting process. This will address the
timeliness and appropriateness of the submission of A-133's OCFS including the Commission.

ONCS will institute a process to deal with the audit findings that are forwarded to it. For
example, ONCS would review the findings and corrective action plans and contact would be
made with the contractor to make sure the corrections were made. If the findings were major, a
field visit to the contractor might be warranted to review the problem andlor to assure the
corrective actions were taken. If ONCS had questions regarding the nature of the finding, we
could confer with AQC. Together we would be able to determine the risk level of the finding.

In addition, the Commission will revise its Application Checklist that is used for the initial
review of applications to not only verify the receipt of the A-133 but also include the date of the
audit submitted.

Documentation: Revised Application Checklist
               Audit Checklist
111.   administer in^ Grant Funds

Report: The report states that the Commission did not have adequate procedures to
ensure that subgrantees submitted FSRs in a timely manner. The report recommends that
the Commission strengthen its procedures to actively follow up with subgrantees on late
FSR submissions. The report notes that while the Commission reminds subgrantees by e-
mail, phone calls, and letters that late reporting may impact funding renewal and may
result in penalties, these steps do not appear to be adequate. More stringent requirements,
such as enforcing penalties, may be necessary.

Response: This recommendation was implemented effective with the 2004-05 AmeriCorps
Contracts. The Appendix C Payment and Reporting Schedule used in the 2004-05 AmeriCorps
Contract states, "The contractor must submit all claims for each period of this AGREEMENT no
later than 60 days after the end date of each period of this AGREEMENT. OCFS shall not be
responsible under this AGREEMENT for reimbursing the Contractor for any expenditures
incurred and submitted 60 subsequent to the end of each period." This clause gives ONCS the
ability to withhold payment for untimely submission of Financial Status Reports (FSR's), since
contractors are required to include them with their claim submissions.

Due to the fact that reports are due to CNCS 30 days from the end of the claim period, ONCS is
now considering changing the above language to include "20 days for financial reports and 60
days for claims."

 The Corporation Provisions state: "Requests for extensions of reporting deadlines will be
granted when 1) the report cannot be furnished in a timely manner for reasons legitimately
beyond the control of the grantee and 2) the Corporation receives a request explaining the need
for an extension."

"Extensions of deadlines for FSRs (SF 269a) may only be granted by the Office of Grants
Management, and extensions of deadlines for Progress Reports may only be granted by the
AmeriCorps Program Office."

ONCS has either submitted FSRs on time or requested that an extension be granted by the CNCS
Grants Office. It must be noted here that reports historically were submitted electronically
through the Web-Based Reporting System (WBRS). The WBRS system required that ALL
subgrantee reports be submitted before a grantee report could be submitted. Submission dates are
recorded in the system. However, when a commission reopens a document to make any
revisions or updates, a new submission date would be recorded that would appear to indicate that
the report was not submitted on time. For example, if a program was granted an extension, they
would have to submit a report to the Commission with zeroes because the Commission could not
submit its aggregate report unless every program was included. When the program finally
submitted its report based on the extension it was granted, the Ccommission would have to re-
open its aggregate FSR to include that program, thus changing the commission submission date
on WBRS.
Extensions on financial reports have been granted via a telephone conversation with the CNCS
Grants Office, and therefore may not be documented at the Commission. However, the
Commission has always received extensions from the grants office as necessary, and has not
submitted late financial reports to CNCS. A review of the Corporation's records should
demonstrate that the Commission is not delinquent in reporting. In the future, if necessary, all
requests will be made in writing and approvals will be maintained in ONCS files.

ONCS policy and contract language allows programs 20 days to submit financial reports for each
quarter. This provides a challenge for programs, given that some may have to go to legislative
bodies, central offices and/or have multiple sites that must be included. However, given the fact
that our CNCS reporting deadline is 30 days after the period, we must maintain the tight
deadlines. That being said, ONCS is instituting new policies starting with the 2004-05 program
year. Those policies are reflected in contract language and within the updated Fiscal Manual that
is being provided to all programs at our mandatory fiscal training in September.

New language has been added to the NYS AmeriCorps Contract and the Fiscal Manual:

       Late Program and Financial Reports - When a report is 5 days overdue, the
       signatory of the contract will be sent a letter from OCFS stating the reporting
       requirements of the grant have not been met.

In the past, staff has corresponded with AmeriCorps program staff when reports were late.
Sending formal letters and notifying the signatories of contracts that the program is out of
compliance will address the timely submission of FSR's.

It is not the practice at the NYS Office of Children and Family Services to impose financial
penalties on grantees for late reporting, beyond the withholding of funds until required reports
are received.

Report: The report states that the Commission did not periodically reconcile FSRs
to cash drawdown balances. The report recommends that the Commission develop a
formal policy to ensure that it reconciles cumulative claimed costs per FSRs to cumulative
drawdowns made by the Commission at least annually. The policy should include
procedures requiring differences to be investigated and resolved, with explanations
documented.

Response: ONCS, in consultation with OCFS Division of Administration, is in the process of
developing new financial reporting procedures that will address the reconciliation of reports. We
are reviewing several options and are consulting with the NYS Office of the State Comptroller.
ONCS will choose the option that best suits its needs.

It is our understanding that CNCS is developing new procedures and new financial reporting
forms that will require reporting of cash drawdowns as well as expenditures that will address this
issue on a national level. ONCS will comply with any requirements as they are implemented.
We are currently developing a closeout schedule for 00ASCNY033 and 00ASFNY033, which
ended in March 2004. As part of the closing routine, we will reconcile FSRs as submitted by
programs with expenditures, as reported by the State Comptroller, and subsequent drawdowns of
Federal monies. The final FSR will reconcile drawdowns from the Comptroller's Office. We will
be notifying programs of discrepancies and closing all programs in balance. This will become
part of the regular closeout procedure.

OCFS will institute a semiannual reconciliation of all FSRs to DHHS drawdowns.

IV.    Evaluatin~and monitor in^ Grants

Report: The report states that the Commission did not adequately monitor subgrantees,
performed only limited programmatic monitoring, and conducted no fiscal monitoring of
tested subgrantees. The report recommends that the Commission comply with its policies
for monitoring subgrantees, continue to conduct a risk assessment of each subgrantee, and
conduct monitoring appropriate for each risk level. The report recommends that key
controls, such as validating costs and member testing, be performed for all subgrantees.
Such tests could be conducted onsite or offsite. The Program Monitoring Tool appears to
be an excellent form to document most monitoring and should be used regularly.

Response: As was stated, the 2002-03 program year was extraordinary for ArneriCorps. We are
putting forth that monitoring for the 2001-2002 year was performed within the policies and
procedures held by OCFS and the Commission (as will be presented in the Evaluating and
Monitoring Grants section of this document), that the 2002-2003 program year was an anomaly,
and that for the 2003-04 program year, an aggressive program and fiscal monitoring schedule is
in place.

Additionally, the fact that the auditors included two Education Award Only programs in the
sample (one from each year) raises the question of whether or not the sample was a valid sample
since regular fiscal monitoring does not pertain to Education Award Only programs.

In order to address the 2002-03 program year, ONCS has entered into contract with four
independent auditing firms to conduct independent audits of all 2002-03 programs that were
assessed by program administrators as being of High Risk or Moderate Risk. Several audits have
been completed and others are currently underway. We will continue include funds for future
independent audits in our 2005 Administrative Budget and beyond.

As acknowledged by the auditors in their description of internal controls, ONCS has appropriate
systems in place. ONCS program administrators are currently aggressively conducting
programmatic and fiscal monitoring for all programs. All testing procedures included in the
ONCS monitoring tools and procedures will be completed. Information gained from recent
monitoring will be used during risk assessment and further audits will be conducted as necessary.
We will continue to schedule independent audits so that programs will be reviewed on a cyclical
basis.
Attachment:    Independent Audit Schedule
               ONCS Monitoring Calendar

Report: "The Commission's monitoring policy requires reviewing subgrantee financial
records during monitoring site visits to ensure the accuracy and allowability of financial
information reported on FSRs. Based on sample testing of 10 subgrantees from Program
Years 2001-02 and 2002-03, none of the subgrantees received a fiscal review of their
accounting records and supporting documents. This is the only control established to test
allowability and propriety of costs for subgrantee expenditures claimed; thus there is the
risk that subgrantees were paid for unallowable expenses, and inappropriate match was
claimed during the period under review. Additionally the commission could not ensure the
accuracy and allowability of expenditures listed on subgrantee FSRs, and as a result, on the
Commission's aggregate FSR submitted to the Corporation.''

Response: In 2001-02 the ONCS portfolio included 48 programs. As was discussed with the
auditors, ONCS staff was diligent in monitoring these programs through site visits as well as
performing regular off site review of WBRS documentation, program and fiscal reports. Six of
these programs were Education Award programs leaving 42 regular operating programs subject
to operating program fiscal site visits. Being fixed grant award programs, Education Awards
programs are not required to receive fiscal monitoring. In total, 62 program and fiscal site visits
were made during that year. There were nineteen fiscal site visits made, meaning that 45% of
operating programs did receive fiscal site visits in 2001-02.

Again, in order to address the 2002-03 program year, ONCS has entered into contract with
several independent auditing firms to conduct 15 independent audits of all 2002-03 programs
that were assessed by program administrators as being of High Risk or Moderate Risk.
Additionally, seven independent audits were conducted for 2001-02.
Report: "The Commission's policy requires at least one annual site visit to subgrantees that
received a moderate or high risk rating during the risk assessment process. Based on our
review of five subgrantees in Program Year 2002-03, three subgrantees rated as moderate
risk did not receive any programmatic or financial site visits."

Response: While onsite monitoring did not occur, program administrators did complete Module
A of the Monitoring tool (off site WBRS monitoring). Given that 2002-03 was such an anomaly,
included is a Chronology of Key Dates that summarizes the work done by ONCS to assist all
programs and manage funds to keep programs operational. The day-to-day work involved with
the myriad requests from the Corporation to survey programs on member status is not reflected
in the Chronology, but required major time commitments by ONCS staff. Program
administrators also were in constant contact with program staff, assisting them with many
challenges related to the enrollment pause, including working with each program and reviewing
all budgets and expenses to ascertain where budgets could be modified. Program administrators
also worked with programs to estimate funds not needed so that the Commission could recoup
those funds to support Planning Grants in 2003-04. Program staff also processed contract
amendments , extending operations from December 3 1, 2003 through March 3 1, 2004. Program
administrators at the Commission were keenly aware of all program operations, budget and
expenditures during this difficult time.

Again, ONCS is currently conducting monitoring functions per our Policies and Procedures
Manual for the 2003-04 program year and beyond.

Report: "Of the six subgrantees tested that received a programmatic site visit from the
Commission, a maximum of six member files were reviewed, rather than the minimum ten
files required by Commission policy. Also, the modules for Program Management Review
and Program Effectiveness Review were not completed at three of the subgrantees, and
operating site visits with member interviews were not conducted."

Response: ONCS policies state, "During on-site monitoring, ONCS staff shall draw a random
sample of program member records, based on the assumptions that a 20% sample is sufficient to
draw conclusions about the characteristics of the larger population. Therefore, a sample of 20%
shall be drawn, except for large programs in which a minimum sample of 10 files shall be
drawn." Therefore, the 10 record minimum applies only to large programs where 20% would
include more than 10 records. For smaller programs, less than 10 files can be reviewed, as 20%
is sufficient.
Report: "Management oversight of monitoring activities performed by program
administrators is lacking. The Executive Director retired in December 2002. Subsequently,
management responsibilities previously performed by the Executive Director were divided
among program administrators. With these additional responsibilities, program
administrators only devoted half their time to monitoring activities."

Response: ONCS has been working with the Office of Children and Family Services (OCFS)
Office of Human Resources to fill the Executive Director position. Human Resources is working
with NYS Civil Service to enable OCFS to fill the position. In the meantime, Sally Herrick,
Assistant Commissioner of the Office of Youth Development (OYD) is serving as the Acting
Executive Director. She and her assistant, Matt B. Murell, OYD Bureau Director, will provide
oversight of monitoring activities.

We appreciated the best practices that the auditors shared in relation to the ONCS Monitoring
Tool.

          Fiscal Monitoring

                  ONCS is currently working with the OCFS Bureau of Training and the New
                  York State Office of the State Comptroller to design a course for program
                  administrators that will include basic accounting practices and an overview of
                  financial management of community based organizations.
                  Walker and Company, the Corporation's Fiscal Technical Assistance and
                  Training provider, will be providing fiscal training to NYS AmeriCorps
                  programs on September 22, 2004 and fiscal monitoring training to NYS
                  ArneriCorps program administrators on September 23,2004.
                  The Fiscal Monitoring Tool has been revised to include a checklist, or guide,
                  that is more specific in conducting fiscal monitoring of programs.
                  Risk Assessments will continue to be completed annually and a site visitlfiscal
                  monitoring calendar has been developed and will be reviewed and analyzed
                  on a "regular basis" (define).
                  ONCS has entered into contract with an independent auditing firm to
                  complete fiscal audits of all moderate and high risk programs that were
                  operational in the 2002-03 program year. These auditors will specifically be
                  charged with reviewing expenses for allowability and recommending
                  remedies when discrepancies are found.

           Prohibited Activities

                a. The identification of prohibited activities will continue to be emphasized in
                   program director training.
                b. Programs will be required to submit a copy of their member contract with a
                   description of Prohibited Activities
                c. ONCS will include a questionnaire for members related to prohibited
                   activities to be used by program administrators as part of the monitoring
                   tool.
Documentation: Revised ONCS Program Monitoring Tool
               Fiscal Monitoring Tool
               Program Monitoring Calendar for 2003-04
               Chronology of Key Dates that identifies the activities performed by
               Commission staff during 2002-03 to address the crisis in ArneriCorps
               funding.

Summary: The NYS Office of National and Community Service and the Office of Children and
Family Services believes that steps have been taken to implement recommendations of the Pre-
Audit Survey and address any issues. Given the fact that procedures were in place throughout the
audit period and those issues occurred during a brief period of time, it is our contention that
further testing or implementation of a full-scope audit is unnecessary.
                                Corporation for       n




To :         J. Russell George, Inspec@ General

From :

Cc:          A@drewKleine, Acting chief k n c i a l Officer
             Rosie Mauk, Director of ArneriCorps

Date:        September 23,2004

Subject:     Response to OIG Draft Audit Report 04-19, Pre-Audit Survey of the
             New York Commission on National and Community Service


We have reviewed the draft Pre-Audit Survey of the New York Commission on National
and Community Service. Due to the limited timeframe for response, we have not
thoroughly reviewed the report. However, we discussed the report with the Commission
and agree with the auditor's recommendations. Within the next four months, the
Corporation will follow up with the Commission to complete a management decision and
corrective action plan.




                      1201 New York Avenue, NW    *
                                               Washington, DC 20525
                                            *
                            202-606-5000 www.nationalservice.org
                     Senior Corps + ArneriCorps + Learn and Serve America                                  A

                                                                                 The President's Call to Service
